       U.S. Department of the Interior
       Office of Inspector General

                                    Audit Report
                           Procurement Practices,
                    Virgin Islands Port Authority,
                  Government of the Virgin Islands




Report No. V-IN-VIS-0001-2004            March 2005
                 United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                  1849 C Street, NW – MS 5341
                                     Washington, DC 20240

                                                           March 28, 2005

Mr. Darlan Brin
Executive Director
Virgin Islands Port Authority
P. O. Box 301707
St. Thomas, Virgin Islands 00803-1707

Subject: Final Audit Report “Procurement Practices, Virgin Islands Port Authority, Government
         of the Virgin Islands” (Report No. V-IN-VIS-0001-2004)

Dear Mr. Brin:

       The attached report presents the results of our audit of procurement practices at the
Virgin Islands Port Authority. The objective of our audit was to determine if the Port Authority
was carrying out its procurement activities in accordance with applicable local and Federal laws
and regulations.

       The legislation, as amended (5 U.S.C. app. 3), creating the Office of Inspector General
requires that we report to Congress semiannually on all reports issued, actions taken to
implement our recommendations, and recommendation that have not been implemented.
Therefore, this report will be added to the next semiannual report.

       Please provide a response to this report by May 2, 2005. The response should provide the
information requested in Appendix 4 and should be addressed to me at the above address, with a
copy to our Caribbean Field Office, Ron deLugo Federal Building – Room 207, St. Thomas, VI
00802.

                                                    Sincerely,



                                                    Roger LaRouche
                                                    Assistant Inspector General for Audits

cc: Governor Charles W. Turnbull
    Chairman, Governing Board, Virgin Islands Port Authority
CONTENTS
                   Background ................................................................................... 1
BACKGROUND         Objective and Scope ..................................................................... 1
                   Prior Audit Coverage .................................................................... 2


                   Overview....................................................................................... 3
RESULTS OF AUDIT   Capital Improvement Projects....................................................... 4
                   Professional Service Contracts ..................................................... 7
                   Purchase Orders ............................................................................ 11
                   Payment Practices ......................................................................... 12
                   Other Matters ................................................................................ 14


                   To the Executive Director............................................................. 15
RECOMMENDATIONS


                   1.   Prior Audit Coverage ............................................................... 20
APPENDICES         2.   Monetary Impact...................................................................... 21
                   3.   Response to Draft Report......................................................... 22
                   4.   Status of Recommendations..................................................... 23




                                             i
INTRODUCTION
                The Virgin Islands Port Authority was created in 1968 as an
BACKGROUND      instrumentality of the Government of the Virgin Islands. The
                Authority is authorized to establish, acquire, construct, develop,
                and improve air and marine terminals; issue contracts and execute
                all instruments necessary in the exercise of any of its powers;
                accept grants and loans from and enter into contracts, leases,
                agreements, or other transactions with any Federal or Virgin
                Islands agency; and expend the proceeds of any grants or loans.

                The Authority is governed by a nine-member Governing Board,
                and day-to-day operations are managed by an Executive Director
                appointed by the Board. The Authority has 299 employees. The
                Engineering Division, the Purchasing Office, and Accounting
                Office have responsibilities related to the procurement of services.
                The Engineering Division establishes and manages capital projects,
                the Purchasing Office processes requisitions for supplies and
                equipment initiated by other divisions, and the Accounting Office
                maintained files for purchases related to administrative goods and
                services.

                During fiscal years 2002 and 2003, the Authority awarded
                24 construction and/or project management contracts for 11 capital
                improvement projects totaling $85.3 million. Additionally, the
                Authority paid six professional service providers a total of
                $1.9 million over periods of up to 6 years and issued 2,158
                purchase orders totaling $3.9 million during fiscal years 2002 and
                2003.


                The objective of our audit was to determine if the Virgin Islands
OBJECTIVE AND   Port Authority was carrying out its procurement activities in
SCOPE           accordance with applicable local and Federal laws and regulations.
                To accomplish the audit objective, we interviewed Authority
                personnel and reviewed budgets, purchase orders, contracts and
                agreements, contract files, payment documents, and other
                documents related to transactions during fiscal years 2002 and
                2003, and other periods as appropriate for contracts that were
                active during 2003 and 2004.

                We reviewed the contractor selection process for 11 capital
                improvement projects totaling $85.3 million and performed more
                comprehensive reviews of the contracts for 9 of the projects
                totaling $71.1 million. We also reviewed payments totaling more



                                  1
              than $1.9 million made to six professional service providers and
              50 purchase orders totaling $881,954.

              Our audit was conducted in accordance with the “Government
              Auditing Standards,” issued by the Comptroller General of the
              United States. Accordingly, we included such tests of records and
              other auditing procedures that were considered necessary under the
              circumstances. The “Standards” require that we obtain sufficient,
              competent, and relevant evidence to afford a reasonable basis for
              our findings and conclusions.

              As part of our audit, we evaluated the internal controls related to
              procurement activities of the Authority to the extent we considered
              necessary to accomplish the audit objective. Internal weaknesses
              in these areas are discussed in the Results of Audit section of this
              report. The recommendations, if implemented, should improve the
              internal controls in these areas.


              During the past 5 years, the Office of Inspector General has not
PRIOR AUDIT   issued any audit reports on procurement activities at the Virgin
COVERAGE      Islands Port Authority. However, findings related to procurement
              activities were included in two reports issued by the Authority’s
              internal audit unit in December 2000 and August 2002. We found
              that the 11 recommendations made by the internal audit unit were
              not implemented. Further details on these prior audits are
              presented in Appendix 1.




                                2
RESULTS OF AUDIT
           The Virgin Islands Port Authority did not always comply with
OVERVIEW   applicable Federal and local procurement requirements and, as a
           result, did not have adequate control over its procurement function.
           Specifically, we found that the Authority did not:

           ¾ Adequately document the process used to select contractors for
             major capital improvement projects.

           ¾ Maintain complete contract files and require that contractors
             submit all necessary documents, including evidence of liability
             insurance coverage and appropriate business licenses.

           ¾ Adequately plan a major construction project so as to minimize
             the need for contract change orders totaling $13.7 million.

           ¾ Use required competitive negotiations for all professional
             services to ensure that the most cost-effective combination of
             price and quality of service was obtained.

           ¾ Issue contracts for all professional services or, when issued,
             did not do so until the majority of work had been performed
             and significant payments had already been made to service
             providers.

           ¾ Solicit at least two price quotations for purchases of $2,500 or
             less, and issue contracts to vendors for purchases over $2,500,
             as required by internal policies.

           ¾ Deduct gross receipt taxes of $846,653 from payments to
             contractors who performed services for the Authority, as
             required by the Virgin Islands Code.

           Because the Authority did not comply with established policies
           and did not have adequate control over its procurement activities, it
           could not ensure the efficient and effective use of funds.




                             3
                      The Virgin Islands Code1 and the Port Authority’s Procurement
CAPITAL               Policy and Procedures Manual (procurement manual) provide local
IMPROVEMENT           regulations for maintaining contract files, procuring goods and
PROJECTS              services, and deducting gross receipt taxes from payments to
                      contractors and vendors. The Federal “Common Rules” for grant
                      management2 require grantees to follow local procurement
                      regulations for grant-funded projects. In addition, Federal
                      Aviation Administration (FAA) grant regulations contain
                      requirements regarding audit access to contractor records and prior
                      approval of contract change orders.


Lack of Support for   The Authority did not follow requirements for documenting the
Capital Project       procurement process. Contract files should present a complete
Contracting           history of the transaction to provide: a comprehensive background
Undermined the        as a basis for informed decisions at each step in the acquisition
Integrity of          process; support for actions taken; information for audits and
Procurement Actions   investigations; and essential facts in the event of litigation.

                      Section XVII-A of the Authority’s procurement manual lists
                      14 items that should be documented and included in the files for
                      each capital improvement contract. However, we found that
                      although file folders were set up for such items as “mailing lists of
                      bidders,” “contract,” and “bid evaluation,” the actual documents
                      were often not contained within the folders. For example, we
                      could not find documentation of bid analyses and evaluations for
                      10 contracts or bid abstracts for 6 contracts.


Competitive Was Not   Section IV of the procurement manual requires that the Authority
Sought or             acquire services for capital improvement projects by soliciting
Documentation of      competing bids or proposals and choosing the most favorable of
Competition Was       the competing offers. This may be done by formal competitive
Lacking               bidding or by competitive negotiations.

                      We reviewed the contractor selection process for 11 capital
                      improvement projects, 9 from fiscal year 2002 and 2 from fiscal
                      year 2003. We determined that the Authority did not follow the
                      competitive procurement requirements for 7 contracts valued at
                      $1.7 million and did not document the process for 9 contracts
                      valued at $46.4 million. Examples follow:

                      ¾ No information was found in the files for the selection of the
                        firm that performed marine-related services for most capital

                      1
                          Titles 29 and 33
                      2
                          Issued pursuant to OMB Circular A-102


                                             4
                            improvement projects, although seven contracts were awarded
                            to the firm. A February 25, 2003 letter from the firm’s
                            president to the Authority stated that four of five listed projects
                            had been put out on bid, but we could not confirm this
                            statement because documentation was not available. We also
                            found that the Authority did not require that the firm provide
                            proof of liability insurance. Although five of the firm’s seven
                            contracts stated that upon execution the contractor must
                            provide the Authority with certification of insurance, we did
                            not find certificates of insurance in the contract files.

                        ¾ We also found that there was no documentation regarding the
                          selection of the construction contractor for the Henry Rohlsen
                          Airport terminal building on St. Croix or for the selection of
                          project management consultants for the marine port projects at
                          Red Hook, St. Thomas and Enighed Pond, St. John.

                        ¾ Additionally, we were unable to determine who evaluated the
                          proposals and selected the construction contractor and project
                          management consultant for the Ann Abraham pier project on
                          St. Croix.


Contract Change         The initial $22.5 million construction contract for the Rohlsen
Orders for the          Airport terminal was prepared by the contractor and contained
Rohlsen Airport         open-ended provisions that, in our opinion, favored the
Construction Contract   contractor’s interests over those of the Authority. For example,
Were Not Properly       17 change orders were issued to significantly change the scope of
Administered            the project. This resulted in an $8.4 million, or 37 percent,
                        increase in total construction costs and an extension of the contract
                        period from 26 months to 55 months. Change order no. 12
                        compensated the contractor $2.1 million for additional costs
                        related to extensions of the contract period made by prior change
                        orders.

                        An Authority official advised that the prior Executive Director,
                        because of limited funding, originally intended to construct the
                        basic shell of the terminal building and have the airlines and other
                        tenants of the building design and finish their individual areas.
                        However, because of the downturn in the airline industry after the
                        September 11, 2001 terrorist attacks, the Authority changed its
                        plans and decided to construct and finish all tenant areas. Most of
                        the change orders for the construction contract resulted from this
                        change in construction plans. A total of 17 change orders valued at
                        $8.4 million were issued for this major alteration to the project.




                                           5
                        Figure 1. The Henry E. Rohlsen Airport terminal building on St. Croix (Virgin
                        Islands Port Authority photo)



The Rohlsen Airport     On June 23, 1994, the Authority issued a project management
Project Management      contract for the Rohlsen Airport terminal in the amount of
Contract Was            $1.5 million. Our review of the contract files revealed that the
Increased by            original completion date was August 1997, but the completion date
$5.3 Million            was extended to August 2002. A total of 12 amendments raised
                        the total contract cost to $6.8 million – an increase of $5.3 million,
                        or 368 percent. We also found that one of the amendments was
                        approved by the Authority’s Governing Board on July 19, 2000, to
                        continue management services at an additional cost of $964,020,
                        but the Authority paid the contractor $38,561 more than the
                        approved amount. We further found that the contractor later gave
                        the Authority a credit of $28,106, but $1,124 in applicable gross
                        receipt taxes that the Authority had previously included in
                        payments to the contractor was not also credited to the Authority’s
                        account.


Federal Grant-Related   Compliance with grant terms and conditions is a prerequisite for
Guidelines Were Not     receiving FAA and other Federal grants. However, there are other
Always Complied With    general conditions with which the Port Authority should also
                        comply. For example, the FAA’s construction projects guide
                        states that sponsors need prior approval for contract change orders
                        that add or delete work from the basic grant scope. Despite this
                        requirement, the Authority did not request prior approval for a
                        $1 million change order issued on February 20, 2003, to add work


                                             6
                   items to the contract for the rehabilitation of the Cyril E. King
                   Airport on St. Thomas. Although the change order form included
                   a section for FAA approval, this section was not signed by an FAA
                   representative. In fact, the FAA did not approve the change order
                   until December 17, 2003, almost 8 months after the project was
                   completed on April 29, 2003.

                   Additionally, the FAA’s guidelines on recordkeeping
                   responsibilities state that any cost reimbursement contracts
                   executed in conjunction with a Federal grant should include a
                   clause allowing access to contractors’ books, documents, and
                   records by the Comptroller General of the United States or any of
                   his authorized agents. Despite this requirement, our review of
                   major contracts issued by the Authority revealed that this clause
                   was not included. For example, the contract for the construction of
                   the Rohlsen Airport terminal building provided for access to the
                   contractors’ cost accounting records only by the “owner” – the Port
                   Authority.


                   Section IX of the procurement manual specifies that the Authority
PROFESSIONAL       must initiate requests for proposals for specialized (professional)
SERVICES           services and that if the projected cost of the services is $50,000 or
                   more, the proposal must be reviewed and evaluated by an
                   authorized officer and the Director of Administration and Finance
                   or by the Bid Evaluation Committee. The procurement manual
                   also states that a contract shall be awarded for the best proposal
                   and be approved by the Authority’s Governing Board if the
                   contract exceeds $50,000.


Requirements for   Despite these requirements, the Authority did not use competitive
Competition and    negotiations during the selection of four of the six service
Contracts Were     providers we reviewed. Additionally, for the same service
Disregarded        providers, the Authority either did not issue any contracts (five
                   instances) or issued contracts after the majority of work had been
                   performed and payments had already been made (one instance).
                   These service providers collectively received payments totaling
                   more than $1.9 million over periods of up to 6 years. Details
                   follow:

                   Computer Consulting Services - $957,119. The Authority did
                   not obtain competitive proposals from other vendors and did not
                   issue a formal contract for computer software and consulting
                   services. In place of a contract, the Authority used a one-page
                   proposal from a vendor who had previously provided computer-



                                      7
related services. The proposal was attached to two memoranda,
dated August 15, 2000, from the Authority’s Accounting Manager
to the former Director of Administration and Finance. This
package was approved by both the former Executive Director and
former Director of Administration and Finance. One
memorandum stated that the services to be provided consisted of
installation of human resource management software and training
and maintenance for the software. The second memorandum
provided justification for the new software. The proposal had
incorrect price computations, did not include the name of the
vendor, and did not include a time schedule for providing the
services.

We could not determine the actual cost of the project because the
proposal was not dated at the time of approval and invoices
submitted by the vendor included the cost for maintenance and
other miscellaneous services not related to this proposal. The firm
was paid a total of about $957,000 for all services provided during
fiscal years 2000 through 2004 (as of January 2004).

Furthermore, on January 7, 2004, the same vendor submitted
another proposal to (1) design and install a wireless cash collection
system on all three islands, (2) upgrade the Authority’s network
structure to current Microsoft technologies, (3) integrate the
St. Croix purchasing function into the St. Thomas accounting
system, and (4) train St. Croix purchasing staff on the use of the
Solomon IV software – all for $49,400. Subsequent to the start of
the project, the proposed cost was increased to about $98,000.
Because of the lack of documented justification for the increase,
we believe the initial projected cost may have been stated at
$49,400 to circumvent the $50,000 threshold for requiring the
approval of the Authority’s Governing Board.

The Authority again accepted this proposal without issuing a
formal contract. The schedule of tasks attached to the proposal
listed services to be performed from July 24, 2003 through
March 15, 2004, but the document was approved only by the
Executive Director on January 9, 2004, 5 months after the
performance period started. The document was not signed by a
representative of the firm. Finally, an official of the Authority
stated that the firm was selected for this project without any
competition and that, although she knew another firm that could
offer the same services, the Authority wanted this particular firm to
perform the services.




                   8
We also learned that during the past 15 years the Port Authority
hired this firm, without competition or formal contracts, to provide
various computer-related services. This was done despite the fact
that the Authority had an employee on staff who may have had the
expertise to perform at least the less technical tasks (such as
routine maintenance) assigned to the service provider. This
employee was the Authority’s Information System Coordinator,
who was certified in Microsoft software. The employee advised
that he was underutilized by the Port Authority and could have
performed some of the tasks that were provided by the outside
consultant. He said that he was not allowed to participate in any of
the activities performed by the outside consultant. In addition, he
told us that about 7 years ago he requested training in the Solomon
accounting software used by the Authority so that he could
perform many of the tasks that were being performed by the
outside consultant at an hourly rate of $130. The Authority denied
the training. We later learned that the Authority terminated the
employee subsequent to the completion of our audit.

Auditing Services - $333,000. The Authority did not issue a
formal contract for independent auditing services but instead used
a proposal from its long-time auditing firm to perform auditing and
related services for fiscal years 2001 through 2003. No other
proposals were solicited or received for these services. The
February 12, 2001 proposal offered services to (1) perform
financial statement and single audits, (2) review compliance with
bond indentures, and (3) provide recommendations to improve
internal controls. The proposal also stated that the Authority’s
internal audit staff must be utilized to perform audit review tasks to
lower audit costs. The total proposed cost for auditing services
totaled $333,000. However, we found no documentation to show
whether the Authority was given a discount for work performed by
its internal audit staff.

In addition, at the time of our review, the firm which had audited
the Authority continuously over the last 30 years did not have a
current Virgin Islands business license, as required by the Virgin
Islands Code. The firm’s prior business license had expired in
2001 and was not for the type of services it provided to the
Authority.

Legal Services - $6,846. There was no evidence of competition
and the Authority did not issue a formal contract to an attorney
who provided legal services. The Authority used the attorney’s
proposal letter, which included an offer of services, as a contract.
Although the Executive Director stated that he interviewed two



                   9
attorneys, we found no documentation of competition or analysis
of the attorneys’ proposals in the Authority’s files. The Authority
paid all invoices submitted by the attorney, totaling $6,846,
without a formal contract.

Financial Consulting Services - $200,655. A 2-year contract for
financial consulting services to the Authority expired on
September 14, 1996. During the subsequent 6-year period, the
consulting firm continued to provide services to the Authority
without a contract. Then, on April 1, 2003, the Executive Director
awarded a 1-year contract to the same firm for services related to
the development of the Crown Bay commercial center on
St. Thomas. We found no documentation to indicate the method
used to select the firm for any of the services provided. Also, our
review of paid invoices disclosed that the Authority paid the firm a
total of $200,655 from October 1999 to March 2003, but records
were not available for us to determine the amount of payments
made prior to October 1999. We further found that the Authority
paid the firm $1,536 for out-of-pocket expenses without supporting
receipts or other documentation and $2,700 for lodging costs at an
unidentified local hotel.

Investigative Services - $5,000. On July 29, 2003, the Authority
awarded a contract for $2,500 for investigative services. The
Authority paid a retainer fee of $1,250 on August 20, 2003, and the
balance due of $1,250 on October 15, 2003. The original contract
stated that if additional investigative services were needed, a new
contract would have to be approved and signed by both parties.
However, on November 14, 2003, the Authority paid the contractor
another $2,500 for additional investigative work without preparing
a follow-up contract. In addition, we could not determine if the
investigative work was satisfactorily completed because we did not
find an investigative report or other evidence of successful
completion of the contracted work. Finally, we found that the
Authority did not ensure that the contractor had a valid license to
do business in the Virgin Islands, as required by the Virgin Islands
Code.

Water Quality Monitoring Services - $453,797. The Authority
did not use competition to award three projects to a firm that
provided water quality monitoring and related services to the
Authority. The firm submitted statements of qualifications and
proposals for projects at Crown Bay and the Charlotte Amalie
Harbor on St. Thomas and at Gallows Bay on St. Croix. Contracts
for these three projects were not prepared until June 27, 2003, after
the proposed work had already started. Specifically, the Charlotte



                  10
                      Amalie Harbor project started in June 2000 or 35 months before
                      the contract, the Gallows Bay project started in July 2001 or
                      23 months before the contract, and the Crown Bay project stated in
                      April 2003 or about 2 months before the contract. The Authority
                      paid the contractor a total of $453,797 before issuance of the
                      contracts.


                      The Authority did not always follow requirements for competition
PURCHASE ORDERS       and file maintenance for purchase orders.

Competitive           According to Section XI of the procurement manual, the
Procedures Were Not   Authority’s Purchasing Division is to either fill requisitions from
Always Followed       items in stock or follow the competitive bidding procedures to fill
                      requisitions from an outside vendor. The purchasing manual
                      requires that for purchases of $2,500 or less, the Authority obtain
                      at least two competing price quotations and issue the purchase
                      order to the lowest cost vendor. Although this requisition/purchase
                      order process is intended for the routine purchase of materials and
                      supplies, we found that the Authority also used this process for
                      large, one-time purchases of goods and services.

                      We reviewed a sample of 50 purchase orders (25 each from 2002
                      and 2003) totaling $881,954, out of 2,158 issued totaling
                      $3.9 million. All 50 purchase orders were in the range of $3,000 to
                      $61,000. We were unable to determine if all requisitions were
                      completed as required because 26 of the originating requisitions
                      (13 from each year) could not be located. The Authority also did
                      not comply with the price quote requirement for purchases of
                      $2,500 or more for 34 of the 50 purchases. We could not
                      determine why price quotations were not obtained in all required
                      cases because of a lack of documentation.

                      We also noted a case (not part of our sample of 50 purchases) in
                      which purchases from a vendor totaled about $23,000 in 2002 and
                      $34,000 in 2003, but the Authority did not enter into a standing
                      supply contract with the vendor and did not solicit competitive
                      price quotations from other similar vendors in order to try to
                      reduce the overall cost of the items being purchased.




                                       11
File Maintenance       Section XVII-A to E of the procurement manual state that the
Requirements Were      Purchasing Office should maintain separate files for requisitions,
Not Always Followed    purchase orders, contracts, receiving reports, and vendors.
                       However, only the requisition and purchase order files were being
                       maintained and, even then, these files were incomplete. For
                       example, we could not locate 26 requisitions related to purchase
                       orders in our sample. In addition, a contract file was not
                       maintained because the Purchasing Office normally did not issue
                       contracts to vendors from which day-to-day purchases of materials
                       and supplies were made. In those cases where supply contracts
                       were issued, they were maintained by either the Maintenance
                       Division or the Accounting Office. Purchasing Office personnel
                       further stated that, in their opinion, there was no need for a
                       separate vendor file, and that receiving reports were not maintained
                       because they were sent to the Accounting Office to be filed with
                       the vendor payment documents. The Authority should either
                       enforce the filing requirements contained in its purchasing manual
                       or revise the manual based on the specific documentation needs of
                       the Authority, consistent with good internal controls.


                       The Authority did not always deduct gross receipt taxes from
PAYMENT                payments to contractors and service providers, as required by law.
PRACTICES              The Virgin Islands Code (33 VIC § 44) was amended on
                       September 16, 1997, to require that Government of the Virgin
                       Islands agencies deduct the 4 percent gross receipt tax from any
                       single payment made to contractors in the amount of $30,000 or
                       more and from any payments made pursuant to a contract in the
                       total amount of $120,000 or more.


Gross Receipt Taxes    Authority officials stated that they were not aware of the new
of $846,653 Were Not   requirement until the Authority received a December 22, 2000
Deducted From Paid     memorandum on the subject from the Bureau of Internal Revenue.
Invoices               The Authority began deducting the gross receipt tax in February
                       2001. However, it did not deduct the tax from all applicable
                       payments to contractors and service providers. We identified gross
                       receipt taxes totaling at least $846,653 that were not deducted from
                       payments to nine contractors and service providers for subsequent
                       remittance to the Bureau of Internal Revenue. Specifically:

                       ¾ Gross receipt taxes estimated at $700,277 were not deducted
                         from payments made to the construction contractor that worked
                         on the Rohlsen Airport terminal building on St. Croix. Each
                         invoice submitted by the contractor included the gross receipts
                         tax as a separate line item to be reimbursed by the Authority.



                                         12
   However, the Authority did not begin deducting the tax from
   payments made to the contractor until February 2001.
   Similarly, we estimated that gross receipt taxes of $103,327
   were not deducted from payments made to the Rohlsen Airport
   project management consultant. We were unable to determine,
   because of the lack of documentation, if these two off-island
   firms ever paid the gross receipt taxes, totaling $803,604, to
   the Bureau of Internal Revenue.

¾ At least five payments made to the Authority’s independent
  audit firm during fiscal years 2000 to 2004 (through January
  2004) met the $30,000 threshold for withholding gross receipts
  taxes. We estimated that gross receipts taxes totaling $6,600
  should have been deducted from payments on these invoices
  but were not. An Authority official said that she “thinks” the
  audit firm had a tax waiver, but we found that the tax waiver
  was for taxes in the Commonwealth of Puerto Rico. We also
  noted that the firm may have avoided the requirement for
  automatic deduction of gross receipts taxes by splitting
  invoices that would have totaled more than $30,000. For
  example:

   •   The audit firm issued four invoices to bill $57,000 for audit
       services related to a marine bond issuance. Two of these
       invoices, which totaled $37,000 ($28,000 and $9,000),
       were dated 10 days apart: November 8 and 18, 2002.

   •   The audit firm also issued four invoices to bill $95,000 for
       the fiscal year 2002 financial statement audit. Two of
       these invoices, which totaled $50,000 ($25,000 each), were
       dated 4 days apart: December 27 and 31, 2002.

¾ The Authority paid the computer consulting firm $208,011 in
  four payments of more than $30,000 each, but did not deduct
  gross receipts taxes totaling $8,320.

¾ The Authority paid a financial consulting firm $115,291 in
  three payments of more than $30,000 each, but did not deduct
  gross receipts taxes totaling $4,612.

¾ The Authority also did not deduct gross receipt taxes totaling
  $16,074 from invoices totaling $351,156 paid to the firm hired
  for many marine related projects.




                 13
                ¾ The Authority did not deduct gross receipt taxes totaling
                  $7,443 from payments totaling $186,080 made to four vendors
                  for goods or services procured through purchase orders.

                A responsible Authority official could not explain why the taxes
                were not deducted from these invoice payments. We have
                provided a list of the contractors and service providers discussed
                above to the Bureau of Internal Revenue for followup review to
                determine whether the firms paid all applicable gross receipts
                taxes.


                Although not a part of our overall audit objective, we noted that
OTHER MATTERS   the Port Authority did not have a formal information technology
                disaster recovery plan and had not developed user access and
                security policies. This left the Authority vulnerable to security
                breaches of its accounting and other automated systems.
                Additionally, the Authority relied almost exclusively on an
                off-island computer consultant for work related to its computer
                systems and accounting software. This also left the Authority
                vulnerable to the failure of these critical systems without access to
                immediate, on-site service.

                We believe that the Authority should assess its information
                technology (1) disaster recovery, (2) user access and security, and
                (3) system maintenance policies and practices, and develop
                comprehensive guidelines for securing this critical operation.
                Failure of its computer systems could cripple the Authority’s
                day-to-day operations.




                                  14
RECOMMENDATIONS
                   We recommend that the Executive Director of the Virgin Islands
TO THE EXECUTIVE   Port Authority:
DIRECTOR OF THE
VIRGIN ISLANDS        1. Provide all employees with responsibilities related to the
PORT AUTHORITY     procurement process with a copy of the Port Authority’s
                   Procurement Policy and Procedures Manual, and hold meetings
                   with these employees to familiarize and discuss with them the
                   specific requirements of their positions as related to the
                   procurement process.

                      2. Develop and implement a tracking system or checklist to
                   ensure that procurement-related requirements are followed for all
                   contracts.

                       3. Exercise due care during the planning for future capital
                   improvement projects to provide prospective contractors with as
                   detailed and complete project specifications as possible so as to
                   minimize the need for contract change orders and/or amendments.

                       4. Implement procedures to ensure that contract change orders
                   for Federally-funded capital projects are approved in advance as
                   required by Federal Aviation Administration regulations. Also
                   ensure that future Federally-funded contracts contain the “audit
                   access” clause and any other clauses required by Federal grant
                   requirements.

                       5. Enforce compliance with the requirements that competitive
                   procedures be used and formal contracts be issued for all contracts
                   related to capital improvement projects and for other types of
                   professional services.

                       6. Either enforce compliance with the existing internal
                   policies regarding the types of documents that should be
                   maintained in contract and other procurement files, or revise the
                   policies based on the specific documentation needs of the
                   Authority, consistent with good internal controls.

                       7. Establish and implement record control procedures to
                   ensure the security of procurement files, including the use of file
                   sign-out procedures.




                                     15
                       8. Enforce existing policies that require at least two price
                   quotations and the issuance of contracts for purchases of goods and
                   service of $2,500 or more.

                       9. Make all contractors aware of the Virgin Islands Code
                   requirement that gross receipts taxes be deducted from payments
                   made by the Port Authority, and implement procedures to ensure
                   that such taxes are withheld and paid over to the Virgin Islands
                   Bureau of Internal Revenue as required by law.

                       10. Cooperate with the Virgin Islands Bureau of Internal
                   Revenue in ensuring that the contractors and service providers
                   discussed in this report have paid the $846,653 in gross receipts
                   taxes that wasn’t deducted from payments they received from the
                   Port Authority.


                   We received a March 9, 2005, response from the Port Authority’s
AUDITEE RESPONSE   Executive Director. The Executive Director stated that, although
                   he took exception to certain findings and conclusions in the report,
                   he “acknowledges the fact that there is a need for significant
                   improvement.” The Executive Director further stated that the Port
                   Authority would take action to (1) revise the Procurement Policy
                   and Procedures Manual for clarity and consistency, (2) establish
                   proper files and maintain appropriate records, particularly for
                   construction contracts, and (3) ensure compliance with Federal
                   rules and regulations pertaining to grants for capital projects and
                   programs, to include monitoring by the Authority’s Internal Audit
                   unit. These three actions generally correspond to
                   Recommendations 1, 6, and 4, respectively. However, the
                   response did not address the other seven recommendations.
                   Accordingly, we consider Recommendations 2, 3, 5, 7, 8, 9, and 10
                   to be unresolved and request additional information for
                   Recommendations 1, 4, and 6 (see Appendix 4).


                   An attachment to the Executive Director’s response included
OFFICE OF          lengthy comments on specific sections of the draft audit report.
INSPECTOR          For the most part, those comments either (1) took issue with the
GENERAL REPLY      wording used in the report, rather than addressing the substance of
                   the problem areas noted, or (2) provided generalized statements to
                   the effect that the Port Authority followed appropriate steps during
                   the procurement process, without providing support for such
                   statements. Specific comments included in the response and our
                   replies follow:




                                     16
¾ The response stated that the Background section referred to
  payments made to professional service contractors over a
  6-year period, but the Objective and Scope section only
  referred to audit steps carried out with regard to transactions
  during fiscal years 2002 and 2003 and, to the extent necessary,
  during 2004. This in an incorrect interpretation of the audit
  scope. We performed audit steps for transactions during fiscal
  years 2002 and 2003, and also extended the steps to “other
  periods as appropriate” for contracts that were active in fiscal
  years 2003 and 2004. Therefore, we performed audit steps for
  periods prior to fiscal year 2002 for contracts that were active
  in fiscal years 2003 or 2004.

¾ The response stated that we should not have relied upon the
  two prior audit reports issued by the Port Authority’s Internal
  Auditor, stating that those reports were not final reports. We
  did not rely on the Port Authority’s internal audit reports to
  either determine our audit tests or reach any of our audit
  conclusions. We based our audit findings and
  recommendations on our independently performed audit tests
  and independently derived audit conclusions. The Executive
  Director told us about the two reports at the time of our
  entrance conference for this audit and suggested that we obtain
  copies from the Internal Auditor, which we did. Furthermore,
  we cited these reports simply for historical purposes to show
  that problems similar to those we found had been previously
  identified by the Internal Auditor.

¾ The response stated that our conclusion was “misleading and
  unfounded.” We disagree. Our finding that the Port Authority
  did not have adequate control over its procurement function is
  accurate, clearly supported by the details presented in the
  report, and substantiated by our audit working papers. Further,
  we noted that the response presented the Port Authority’s
  procedures to demonstrate that it adequately controlled
  procurement. However, in virtually every case, the conditions
  we found during the audit clearly showed that the established
  procedures were not always followed. This was true with
  regard to the (1) documentation of procedures used to select
  contractors; (2) maintenance of complete contract files; (3)
  justification for contract change orders; (4) documentation of
  the use of either competitive bidding or competitive
  negotiation, as appropriate; (5) issuance of formal contracts to
  professional service providers; (6) solicitation of price
  quotations for purchases under $2,500 and issuance of
  contracts for purchases over $2,500; and (7) deduction of gross



                 17
    receipts taxes from payments to contractors. The response
    glossed over most of the specific examples contained in the
    body of the report as though they did not exist.

¾ In responding to our finding on the lack of competition for the
  award of professional services contracts, the response stressed
  that such contracts do not have to be advertised but are subject
  to competitive negotiation. We agree. However, competitive
  negotiation does not mean no competition. It means the
  issuance of a request for proposals from potential contractors
  and the selection of the successful proposal based on
  qualifications and on the relative quality of the proposal. The
  Virgin Islands Code allows the Port Authority to use either
  “competitive bidding” or “competitive negotiation,” as
  appropriate. But the underlying requirement is that
  procurement should be based on the principle of competition.

¾ The response made blanket statements that certain professional
  service contracts had been approved by the Authority’s
  Governing Board, but did provide documentation to support
  these statements.

¾ The response questioned our conclusion that formal contracts
  either were not issued or were issued untimely for certain
  professional services acquired by the Authority, stating that “a
  mutual agreement between two parties is a bidding (sic)
  contract.” Lack of written contracts is bad business. The Port
  Authority should, at a minimum, use a standardized written
  contract agreement that contains certain clauses to define the
  goods or services to be acquired, state the cost of such goods or
  services, define the procedures for dispute resolution, provide
  for audit access to related contractor records, and otherwise
  protect the Authority’s interests. This was not done for the
  professional service contracts cited in this report.

¾ Lastly, the response states that, contrary to statements in the
  report, the Port Authority “has taken out gross receipts taxes
  from all applicable contracts in question from the effective date
  [December 22, 2000] informed by the [V.I.] Bureau of Internal
  Revenue.” In that regard, the response included
  correspondence from one contractor requesting the Port
  Authority’s assistance in securing a tax clearance letter3 from

3
  A tax clearance letter is a form issued by the Bureau of Internal Revenue to
certify that a taxpayer is current on payment of all applicable taxes (including
gross receipts taxes) as a pre-condition for being allowed to renew its business
license.


                     18
the Bureau of Internal Revenue so that it could renew its
business license. However, the response also included a letter
the Bureau of Internal Revenue had issued to the contractor on
May 10, 2001, stating that there was no record on file showing
that the contractor had paid gross receipts taxes for 1999, 2000,
and the first few months of 2001. The Port Authority’s
response did not include any documentation to demonstrate
that this contractor or the other nine contractors/vendors cited
in the report had paid applicable gross receipts taxes.




              19
APPENDIX 1 - PRIOR AUDIT COVERAGE
                 The August 2002 internal audit report “Review of Quality
PORT AUTHORITY   Builders, Inc.’s CM-At-Risk Services Contract” stated that the Port
INTERNAL AUDIT   Authority did not: (1) hold the contractor responsible for gross
REPORTS          receipt taxes, (2) hold the contractor accountable for all penalties
                 and interests levied on gross receipts, (3) receive reimbursement
                 for gross receipt taxes billed, (4) hold the contractor responsible
                 for personnel expenses, and (5) ascertain that all invoices were
                 substantiated by supporting documentation before issuing
                 payments. None of the five recommendations related to these
                 findings were implemented.

                 The December 2000 internal audit report “Discrepancies with
                 Contract Between Birk Hillman Consultants, Inc. and the Port
                 Authority” stated that the Port Authority did not: (1) hold the
                 contractor liable for payment of gross receipts taxes and deduct
                 taxes from payments in accordance with the Virgin Islands Code,
                 (2) require the contractor to submit proof of gross receipts tax
                 payments, (3) establish a tracking mechanism in the Accounting
                 Department to ensure that payments were disbursed in accordance
                 with the contract, (4) obtain receipts for travel expenditures and
                 other out-of-pocket expenses paid to the consultant, (5) notify the
                 consultant that the amount of $964,020 had related taxes of
                 $38,560 included in the lump sum, and (6) prepare change orders
                 for an additional $95,472 that was paid without appropriate
                 authorization. None of the six recommendations related to these
                 findings were implemented.




                                   20
APPENDIX 2 - MONETARY IMPACT
FINDING SECTION                       Unrealized        Unsupported   Questioned
                                      Revenues             Costs        Costs
Unsupported Out of
Pocket Expenses                                           $4,236

Gross Receipt Taxes Not
Deducted from Payments                $846,653

Unreimbursed Gross
Receipts Taxes                                                         $1,124

   Totals                             $846,653            $4,236       $1,124




 __________
 All amounts represent local funds.




                                                   21
APPENDIX 3 – RESPONSE TO DRAFT REPORT




      [Attachments have been omitted by the Office of Inspector General.]


                                      22
APPENDIX 4 – STATUS OF RECOMMENDATIONS

Finding/Recommendation
       Reference                 Status                      Action Required

       1, 4, and 6          Management         Provide a plan of action that includes target
                            concurs;           dates and the titles of the officials
                            additional         responsible for implementing corrective
                            information        action.
                            requested.

 2, 3, 5, 7, 8, 9, and 10   Unresolved.        Consider the recommendations and provide
                                               a response that expresses concurrence or
                                               nonconcurrence with each recommendation.
                                               If concurrence is indicated, provide a plan of
                                               action that includes target dates and the titles
                                               of the officials responsible for implementing
                                               corrective action. If nonconcurrence is
                                               indicated, provide the reason for
                                               nonconcurrence and a plan of action that
                                               includes alternative corrective action and
                                               target dates for addressing the underlying
                                               deficiencies.




                                          23
If you wish to receive additional CDs of this report, please contact

 the Department of the Interior, Office of Inspector General, at

                           202-208-5745
